r
CERTIFICATE OF SERVICE
I Krishna Mote state" that this Petition for Writ of Certiorari complies
with rule 33.2(b). That the amount of pages for the Writ of Certiorari
are

15

and does not exceed over 40 pages and contains

I % 3 words

and does not exceed the 9,000 word limit according to rule 33.1(d) and
rule 33.kg(i). I also hereby certify that a true and correct copy of
this foregoing instrument has been mailed postage prepaid on this

il

day of Jq\y __ 2021 to the Supreme Court Clerk.
Supreme Court Clerk
Building one
First street North East
Washington, DC 20543

I declare under penalty of perjury that the foregoing instrument is
*

true and correct Pursuant to 28 U.S.C.§1746.

Respectfully Submited

Krishna Mote-683-77-067
.'-’Schuylkill Prison Camp-2
P.0. Box 670
Minersville Pa. 17954

(9)

